                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

     Case Number: A-05120084                                                                     Page 1 of 1



           While reviewing documents in our office, we found a Small Business Innovation Research
           (SBIR) proposal contained allegedly plagiarized text from multiple source documents. Our  '
           investigation determined that the PI^ of the proposal employed at a small company (the
           company)) did not write the proposal. We learned another scientist (the subject) employed by
           the company actually authored the proposal. We concluded that the subject, as the author, not
           the PI, plagiarized the text in the proposal.

           We recommended that NSF's Deputy Director send the subject a letter of reprimand informing
           him that NSF has made a finding of research misconduct against him and require the subject
           attend a course in research ethics within one year of the final disposition of the case. NSF's
           adjudicator sent the subject a letter of reprimand and required that he completed an ethics course
           on plagiarism within one year of the disposition of the case. The attached report of investigation
           and the Deputy Director's letter to the subject detail NSF's actions regarding this matter.

           This case is closed and no further action will be taken.




                                                                          . (the company) with about 20 employees.



I'                                                                                                                   ' 11
 NSF OIG Form 2 ( 1 1/02)
The Office of Inspector General (OIG) has concluded the subject,' while employed by a small
business company (the company), plagiarized text from multiple source documents into a Small
Business Innovation Research (SBIR) Phase I NSF proposal2 he authored and that was submitted
to the National Science Foundation (NSF). We recommend that NSF's Deputy Director send the
subject a letter of reprimand informing him that NSF has made a finding of research misconduct
against him and direct the subject to complete a course in research ethics within one year of the
final disposition of the case.

                                                  OIG 's Inauiw

OIG reviewed an allegation that the subject authored the NSF SBIR proposal that contained




                                                                                         -
plagiarized material. The subject was not the PI on the submitted proposal, but instead was
another scientist at the company.3 Our review suggested that the subject, who authored the NSF
SBIR proposal (Tab I), appeared to have copied materials (about 32 lines of text and a figure)
from multiple source documents into the proposal (Tab 214. The apparently copied text generally
had relevant citations but not all were correct or were directly associated with the alleged copied
text. However, none of the allegedly copied text in the subject's proposal was offset or
distinguished in any way to enable the reader to differentiate the apparently copied text from the




                                                                                         -
subject's own text. Likewise, the alleged copied figure was not distinguished in a way to enable
the reader to differentiate the apparently copied figure from the subject's own figures in the
proposal.5

                        , we wrote to the subject (Tab 3). The subject responded in a
                      He confirmed that he was the author of the proposal. He explained that
after we brought this matter to his attention, he did some research about plagiarism and that he
learned that "simply citing original text (copyright or non-copyright) is not good enough. It
needs to be paraphrased."6 He explained that the "mistakes" he "made in writing the proposal
were ~nintentional."~  He explained that he would do his "best to avoid such mistakes in [his]
                                                                                           -   -
future writings."8 He addedihat he had found mistakes similar to the ones he had made in
documents published by others, stating the he believed "this is something that
           as a group have not paid much attention to."9




                                 -
 Declined NSF proposal




as we had originally been told. As a result, we opened this case as a separate matter.
   The copied text and figure are highlighted and annotated in Tabs 1 and 2.
5
  Figure 2, page 2, NSF proposal
   Tab 4, page 1.
   Tab 4, page 1.
   Tab 4, page 1.
   Tab 4, page 1.
The subject provided numerous explanations about the apparently copied materials. Examples of
some of his responses include: 1) "I did not see a better way of expressing the sentence written
in the reference. The reference was put appropriately. I probably should have tried to
paraphrase the text;'"' 2) "the sentence is a factual statement," but the reference number was
misplaced, a typographical error;" 3) "[Tlhe text was properly ~ited."'~

Our review showed that the subject was a co-author of source document C that contained both
Figure 2 (C-1 in the annotated proposal) and some text (C-2 in the annotated proposal). Because
the subject was one of the co-authors of this source document, he could use the figure and text
without attribution, although a citation to the source document for Figure 2 would have been
more appropriate.'

The subject's response included the explanation that he made mistakes with the citation for
source document B with the text. In one instance, he misplaced the citation and, in the other, he
typed the wrong number. He explained that copied text fiom source documents A, D, E, and F
was cited properly. We note, however, that copied text taken fiom source documents D and E-2
were not cited immediately at the conclusion of the copied text.

As a result of our inquiry, we determined that there was sufficient substance to proceed to an
investigation. Because the subject worked at a small company (see footnote I), we elected to do
our own investigation. We wrote to the subject on 15 February 2006 informing him that we had
initiated an investigation and might need to ask additional questions (Tab 5).

                                              OIG 's Investigation

On 21 February 2006, the subject called our office (Tab 6). He explained that he did not know
what he had done 'was wrong and that it was an unintentional mistake. The subject was
encouraged to respond in writing with any additional information he might want to provide. On
22 February 2006, the subject responded via email (Tab 7). He repeated what he had said in the
phone conversation and in his earlier written response. He said that he made an unintentional
mistake and would try not to repeat this type of mistake.

The subject's responses during our inquiry and investigation did explain the use of one source
document and the one figure. However, the subject's response did not dispel the allegation
regarding over 25 lines of remaining copied text.

                                               OIG 's Assessment

NSF's Research Misconduct Regulation states that a finding of misconduct requires:




'6:
                     -   -   ~     ~




10
  Tab 4, page 1, answer Annotated text: A- 1.
" Tab 4, page 1, answer for annotated text B- 1.
  Tab 4, a e 2, answer for annotated text D, E, and F.
                   after removing alleged copied text C-2 from consideration, over 25 lines of text remain that have
 been copied.
          (1) There be a significant departure from accepted practices of the relevant research
          community; and (2) The research misconduct be committed intentionally, or
          knowingly, or recklessly; and (3) the allegation be proven by a preponderance of
          the evidence.[14]


                                              THEACT
The subject admitted that he copied over 25 lines of text from 5 different source documents. He
stated that, other than when he made errors with the citations, he believed he cited everything
appropriately.

The subject displayed a lack of understanding of the scholarly standards expected by the research
community for appropriately citing the work of others. The subject claimed he did not take any
intellectual property. However, by improperly citing text within his proposal, he failed to
acknowledge the effort of others includes the text development. He did not understand that
placing a reference in a proposal was not sufficient when copying text from another source. By
not appropriately citing verbatim text, by placing the reference at the end of a quoted passage
without distinguishing the quoted text, by placing the reference in the text of the proposal but not
specifically associated with the copied text, or by failing to provide the correct citation, the
subject was presenting these copied items as his own work.




The subject completed his PhD at a distinguished U.S. institution and, after receiving his degree,
worked for a government research agency prior to beginning his employment at the company.15
Therefore, we dismiss any notion that he was not aware of the scholarly standards that are basic
to the U.S. research communities.

By his own admission, the subject acknowledged that, as the author of the proposal, he copied
text into the proposal without appropriately distinguishing the work of others froin his own work.
The fact that he trained at a U.S. institution and worked at a U.S. government research agency
makes it impossible to conclude that the subject acted in anything less than a knowing manner.
Therefore, we conclude that the subject acted knowingly when he copied text into his proposal.




     -
We believe the preponderance of the evidence indicates that the subject copied unattributed text
into his proposal without appropriately distinguishing these from his own work. In doing so, the
subject significantly departed from the accepted practice of the research community. The
preponderance of evidence also supports the conclusion that the subject acted knowingly when
he copied these materials. We, therefore, conclude the subject committed plagiarism and, hence,

l4   45 CFR 6 689.2(c).
                     \ ,
      Subject completed his PhD work at
     his employment at the company, th
     committed research misconduct.

                             Subject's Response to OIG's Draft Investi~ationReport

     We sent a copy of the draft Investigation Report to the subject for comment. The subject's
     response is at Tab 8. After evaluating his response, we remain convinced that the proposed
     sanctions are reasonable and necessary and the recommendations remain unchanged.

                                           OIG 's Recommended Disposition

     In deciding what actions are appropriate when making a finding of research misconduct, NSF
     must consider several factors. These factors include how serious the misconduct was; whether it
     was an isolated event or part of a pattern; its impact on the research record; and other relevant
     circumstances. l 6

                                                     Seriousness

     As we noted above, we concluded the preponderance of evidence supports the conclusion that
     the subject acted knowingly when he plagiarized materials into his proposals, a significant
     departure from the accepted practice in the research community. Plagiarism strikes at the heart
     of research integrity and is an unacceptable practice within the research community. Although
     the amount of plagiarized text was modest, we believe the level of misconduct was sufficiently
     serious to warrant a finding of research misconduct.

                                             Impact on the research record

     There was no apparent impact on the research record as a result of the subject's actions.

                                                  Recommendations

     We recommend that NSF take the following actions as a final disposition in this case to protect
     the interest of the Government:

          1. Issue a letter of reprimand informing the subject that NSF has made a finding of research
             misconduct against him. l 7

          2. Direct the subject to attend a course in research ethics within one year of the final
             disposition of the case.

     The subject's certifications and proof of an ethics course should be sent to the Associate
     Inspector General for Investigations for retention in OIG's confidential file on this matter.




      45 CFR 5 689.3(b).
     l6
l7   A letter of reprimand is a Group I action.
                                       NATlONAL SCIENCE FOUNDATION
                                              4201 WILSON BOULEVARD
                                         .   ARLINGTON, VIRGINIA 22230




                                                  AUG 2 9 2006
           OFFICE OF THE
        DEPLIM DIRECTOR


    CERTIFIED MAIL -RETURN RECEIPT REOUESTED,




            Re: Notice of Misconduct in Science ~ e t e r m i n ~ t i o n

    Dear

          You authored a proposal entitled '                               -
.   which was submitted to the National Science Foundation ('3       '




    documented in the attached Investigative Report prepared by NSF's Office of Inspector General
    ("OIG), this proposal contained text and a graphical figure that were plagiarized.

    Scientific Misconduct and Proposed Sanctions

            Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification,
    or plagiarism in proposing or performing research funded by NSF ..." 45 CFR $689.1(a). A
    finding of research misconduct requires that:

             (1)      There be a significant departure from accepted practices of the relevant research
                      community; and
             (2)      The research misconduct be committed intentionally, or knowingly, or recklessly;
                      and
             (3)      The allegation be proven by a preponderance of evidence.



            In your proposal, you misappropriated text and copied a graphical image from several
    source documents into the proposal without providing proper attribution for such material. By
    submitting a proposal to NSF that copies the ideas or words of another without adequate
    attribution, as described in the OIG Investigative ~ e ~ o you
                                                               r t , misrepresented someone else's
    work as your own. Your conduct unquestionably constitutes plagiarism. I therefore conclude
    that your actions meet the definition of "research misconduct" set hrth in NSF's regulations.

           Pursuant to NSF regulations, the Foundation must also determine whether to make a
    Fnding of misconduct based on a preponderance of the evidence. 45 CFR 5 689.2Cc). Afier
    reviewing the Investigative Report, NSF has determined that, based on a preponderance of the
    evidence, your misconduct was committed knowingly and constituted a significant dep&re
    fiom accepted practices of the relevant research community. I am, therefore, issuing a finding of
    research misconduct against you.

             NSF's regulations establish three categories of actions (Group I, 11, and III)that can be
    taken in response to a finding of misconduct. 45 CFR §689.3(a). Group I actions include issuing
    a letter of reprimand; conditioning awards on prior approval of particular activities from NSF;
    requiring that an institution or individual obtain special prior approval of particular activities
    fiom NSF; and requiring that an institutional representative certify as to the accuracy of reports
    or certifications of compliance with particular requirements. 45 CFR $689.3(a)(l). Group II
    actions include award suspension or restrictions on designated activities or expenditures;
    requiring special reviews of requests for funding; and requiring correction to the research record.
    45 CFR $689.3(a)(2). Group III actions include suspension or termination of awards;
    prohibitions on participation as NSF reviewers, advisors or consultants; and debarment or
    suspension from participation in NSF programs. 45 CFR $ 689.3(a)(3).

            Jn determining the severity of the sanction to impose for research misconduct, I have
    considered the seriousness of the misconduct; our determination that it was knowing;and the fact
    that your conduct did not have an impact on the published research record. I have.also
    considered other relevant circumstances. 45 CFR 9 689.3 (b). In light of the foregoing, I am
.   requiring that-youcomplete an ethics training course on plagiarism by August 1,2007. You must
,
    certi@ in writing to the QIG that such training has been.completed; .    .




    Procedures Governing Appeals

            Under NSF7sregulations, you have 30 days after receipt of this letter to submit an appeal
    of this decision, in writing, to the Director of the Foundation. 45 CFR $689.10(a). Any appeal
    should be addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
    Arlington, Virginia 22230. If we do not receive a response to this notice within the 30-day
    period, this decision will become final. For your information we are attaching a copy of the
    applicable regulations. If you have any questions about the foregoing, please call
    Assistant General Counsel, at (703) 292-8060.




                                                         Kathie L. Olsen
                                                         Deputy Director
    Enclosures
    - Investigative Report
    - 45 C.F.R. 689
